Department of Health and Human Services
                OFFICE OF 

           INSPECTOR GENERAL 





      UNIVERSITY OF 

   WISCONSIN–MADISON

 CLAIMED ALLOWABLE COSTS

UNDER RECOVERY ACT GRANTS



 Inquiries about this report may be addressed to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov. 
                                         




                                                  Sheri L. Fulcher

                                             Regional Inspector General 


                                                   September 2012

                                                    A-05-11-00102 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of the Director of the National
Institutes of Health (NIH) to help stimulate the economy through the support and advancement
of scientific research. Of the $8.2 billion, NIH allocated $445 million to the National Institute of
Diabetes and Digestive and Kidney Diseases (NIDDK). NIDDK conducts and supports basic
and clinical research on many of the most serious diseases affecting public health.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals.

The University of Wisconsin–Madison (the grantee), founded in 1848, is Wisconsin’s
comprehensive teaching and research university with a statewide, national, and international
mission. NIH awarded the grantee Recovery Act grants in the amount of $912,668 for
Quantitative Mitochondrial Proteomics of Healthy and Diabetic Mice research. The grant
project period was from September 25, 2009, through August 31, 2011 (with two budget periods:
September 25, 2009 – August 31, 2010 and September 1, 2010 – August 31, 2011); as of June
30, 2011, the grantee had claimed $755,616 ($566,439 direct and $189,177 indirect) under the
NIH grants.

OBJECTIVE

Our objective was to determine whether Recovery Act costs claimed by the grantee were
allowable costs under the terms of the grants and applicable Federal regulations.

SUMMARY OF FINDINGS

Of the $412,105 in costs covered by our review, we determined that the claims were allowable
under the terms of the grants and applicable Federal regulations. However, the grantee claimed
Federal reimbursement for equipment costs that were significantly rebudgeted between budget
categories and did not receive prior approval for equipment with a purchase price exceeding
$25,000.

RECOMMENDATION

We recommend that NIH work with the grantee to encourage prior approval from NIH for
actions that could be considered a change in scope, including significant rebudgeting, and
purchases of equipment with a unit cost of $25,000 or more that were not included in the
grantee’s approved budget.




                                                 i
GRANTEE COMMENTS

In written comments on our draft report, the grantee requested review and reconsideration of the
requirements and recommendations in the report. The grantee believes that it properly handled
the purchase of equipment and did not require prior approval. Grantee’s comments are included
in their entirety as Appendix A.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH did not concur with the OIG’s findings and
recommendations. NIH concurs with the grantee that the purchase of equipment was not
considered a change in scope and prior approval was not required. NIH’s comments are included
in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the grantee and NIH comments and the changes made by NIH to the definition
of “change in scope” between its 2003 and 2011 NIH Grants Policy Statement, we revised our
findings and recommendations regarding changes in the scope of the project. Findings and
recommendations classifying amounts as unallowable were removed.




                                               ii
                                                    TABLE OF CONTENTS 




INTRODUCTION.................................................................................................................... 1 


     BACKGROUND .......................................................................................... ... .................... 1 

       Federal Requirements for National Institutes of Health Grantees ................................. l 

       The University of Wisconsin-Madison ....................................................... ........ .......... 1 


     OBJECTIVE, SCOPE, AND METHODOLOGY ................ ... ..................... ... .................... 1 

       O~e~w ........................................................................................................................ 1 

       Scope .............................................................................................................................. 2 

       Methodology ................................................ ........ .. ...................... .. ...................... .. ........2 


FINDINGS AND RECOMMENDATION ....... .. ..................... ... ..................... ... ................... .3 


     EQUIPMENT PURCHASES .......................................................................... .. ........ .. ....... .3 

       Federal Requirements .......................................................................................... .. ....... .3 

       Equipment Purchases Lacked National Institutes of Health Prior Approval... ............. .3 


     RECOMMENDATION ...................................................................................................... .4 


     GRANTEE COMMENTS .................................................................................................. .4 


     NATIONAL INSTITUTES OF HEALTH COMMENTS .......................... ... .................... .4 


     OFFICE OF INSPECTOR GENERAL RESPONSE ........................ .. ...................... .. ....... .4 


APPENDIXES 


     A: GRANTEE COMMENTS

     B: NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                       111
                                        INTRODUCTION 


BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of the Director of the National
Institutes of Health (NIH) to help stimulate the economy through the support and advancement
of scientific research. Of the $8.2 billion, NIH allocated $445 million to the National Institute of
Diabetes and Digestive and Kidney Diseases (NIDDK). NIDDK conducts and supports basic
and clinical research on many of the most serious diseases affecting public health.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals.

Federal Requirements for National Institutes of Health Grantees

The allowability of costs incurred by institutions of higher education are determined in
accordance with the cost principles contained in 2 CFR pt. 220 (Office of Management and
Budget (OMB) Circular A-21), Cost Principles for Educational Institutions, as required by 45
CFR § 74.27.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (NIH Grants Policy Statement). The Grants Policy Statement provides NIH grantees,
in a single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information, application information, and
specifies the terms and conditions that apply to particular types of grants, grantees, and activities
that differ from, supplement, or elaborate on the standard terms and conditions.

The University of Wisconsin—Madison

The University of Wisconsin—Madison (the grantee), founded in 1848, is Wisconsin’s
comprehensive teaching and research university with a statewide, national, and international
mission. NIH awarded the grantee Recovery Act grants in the amount of $912,668 for
Quantitative Mitochondrial Proteomics of Healthy and Diabetic Mice research. The grant
project period was from September 25, 2009, through August 31, 2011 (with two budget periods:
September 25, 2009 – August 31, 2010 and September 1, 2010 – August 31, 2011); as of June
30, 2011, the grantee had claimed $755,616 ($566,439 direct and $189,177 indirect) under the
NIH grants.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Recovery Act costs claimed by the grantee were
allowable under the terms of the grants and applicable Federal regulations.


                                                 1

Scope

We did not perform an overall assessment of the grantee’s internal control structure. Rather, we
limited our evaluation of the grantee’s accounting system to (1) obtaining an understanding of
internal control as it relates to the specific objective and scope of the audit, and (2) reviewing the
grantee’s financial audits performed by an independent auditor.

We limited our review to costs the grantee claimed for NIH grants (1RC1DK086410-01 and
5RC1DK086410-02) during the period September 25, 2009, through June 30, 2011. During the
review period, the grantee claimed $755,616. We reviewed $276,331 of the costs claimed by the
grantee as of June 30, 2011. Separately, we reviewed $135,774 in equipment costs claimed after
June 30, 2011 but before August 31, 2011.

We performed field work at the grantee’s administrative office in Madison, Wisconsin in August
2011.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and other guidance;

       reviewed grant announcements, grant applications, and notices of grant award;

       interviewed grantee officials;

       reviewed the grantee’s independent auditor’s reports and management letters for State
        fiscal year ended June 30, 2010;

       identified expended funds in the grantee’s accounting records as of June 30, 2010;

       summarized costs by cost category from expenditure reports;

       verified mathematical accuracy of the expenditure reports;

       compared budgeted and actual expenditures; and

       reviewed selected costs claimed under the grants for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



                                                  2

                               FINDINGS AND RECOMMENDATION 


Of the $412,105 in costs covered by our review, we detennined that the claims were allowable
under the tenns of the grants and applicable Federal regulations. However, the grantee claimed
Federal reimbursement for equipment costs that were significantly rebudgeted between budget
categories and did not receive prior approval for equipment with a purchase price exceeding
$25,000.

EQUIPMENT PURCHASES

Federal Requirements

Cost principles for Educational Institutions at 2 CFR 220, App. A, § 118(b)(2) state that
"[c ]apital expenditures for special purpose equipment are allowable as direct costs, provided that
items with a unit cost of $5000 or more have the prior approval of the awarding agency."
Pursuant to the NIH Grants Policy Statement (December 2003)1, in general, the Program
Director/Principal Investigator may make changes in the methodology, approach, or other
aspects of the project objectives. However, the grantee must obtain prior approval from the NIH
awarding Institute or Center for a change in scope. A change in scope is a change in the
direction, aims, objectives, purposes, or type of research training, identified in the approved
project. The grantee must make the initial detennination of the significance of a change and
should consult with the Grants Management Office (GMO) as necessary. Pursuant to the NIH
Grants Policy Statement (December 2003), "[a]ctions likely to be considered a change in scope
and, therefore, requiring NIH awarding office prior approval include" significant rebudgeting or
the purchase of a unit of equipment exceeding $25,000. Significant rebudgeting occurs when
"expenditures in a single direct cost budget category deviate (increase or decrease) from the
categorical commitment level established for the budget period by more than 25 percent of the
total costs awarded."

Pursuant to 2 CFR 220, App. A, § J.l8(a)(3), '''Special purpose equipment' means equipment
which is used only for research, medical, scientific, or other technical activities. Examples of
special purpose equipment include microscopes, x-ray machines, surgical instruments, and
spectrometers. "

Eqnipment Purchases Lacked National Institutes of Health Prior Approval

The grantee claimed $171,330 for the purchase of a mass spectrometry instrument ($135,774)
and a centrifuge ($35,556). The cost of these two items of special purpose equipment, each
exceeding $25,000, was not included in the grantee's approved budget, and purchases exceeded
the significant rebudgeting threshold for the grant' s second budget period. Therefore, this is an
action likely to be considered a change in scope under the NIH Grants Policy Statement
(December 2003) requiring the prior approval of the NIH awarding office. The grantee did not
obtain NIH prior approval for the purchases because they did not believe the scope of the project
changed.

1 This version of the NIH Grants Policy Statement was effective for all NIH grants and cooperative agreements with
budget periods beginning on or after December 1, 2003 through September 30,2010.


                                                        3
RECOMMENDATION

We recommend that NIH work with the grantee to encourage prior approval from NIH for
actions that could be considered a change in scope, including significant rebudgeting, and
purchases of equipment with a unit cost of $25,000 or more that were not included in the
grantee’s approved budget.

GRANTEE COMMENTS

In written comments on our draft report, the grantee requested review and reconsideration of the
requirements and recommendations in the report. The grantee believes that it properly handled
the purchase of equipment under the “Expanded Authorities” provisions of the NIH Grants
Policy Statement (December 2003). In addition, the grantee believes that the Principal
Investigator did not require prior approval for changes to the scope of work as described in the
“Change in Scope” provisions of the NIH Grants Policy Statement. The grantee’s comments are
included in their entirety as Appendix A.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH did not concur with the OIG’s findings and
recommendations. NIH does not concur with the requirements that the grantee refund $171,330
or obtain NIH prior approval. Even though NIH requires its grantees comply with the terms and
conditions provided in the NIH Grants Policy Statement, it allows grantees a certain degree of
latitude to rebudget within and between budget categories to meet unanticipated needs. Since the
National Institute of Diabetes and Digestive and Kidney Disease grants management staff
concurs with the grantee that the purchase of equipment was not considered a change in scope,
NIH officials have determined that prior approval was not required. NIH’s comments are
included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the grantee and NIH comments and the changes made by NIH to the definition
of “change in scope” between its 2003 and 2011 NIH Grants Policy Statement, we revised our
findings and recommendations regarding changes in the scope of the project. Findings and
recommendations classifying amounts as unallowable were removed. The 2003 version of the
NIH Grants Policy Statement, which is applicable to this grant award, states that grantee actions
such as those described in our findings are “likely to be considered a change in scope.”
However, the current NIH Grants Policy Statement, effective for all awards with budget periods
beginning on or after October 1, 2011, describes “potential indicators of a change in scope”
which include both significant rebudgeting and the purchase of a unit of equipment exceeding
$25,000. Given this subtle, but significant, shift in NIH’s thinking on this topic, we have
modified our recommendation.




                                                4

APPENDIXES 

                                                                                                                                  Page 10f 3


                                       APPENDIX A: GRANTEE COMMENTS
                                                             THE UN,!XEltSITY

                                                          WISCONSIN
                                                                MA DISON


                            OFFICE OF RESEARCH A N D SPONSORED PROGRA M S




            Mar ch 14 , 20 12

            Ms. Sh eri Ful cher
            R eg ional Inspe ctor G eneral for Au dit Servi ces
            DHHS aI'i ce of In'pect or G eneral
            Offi c e of Audit Service " R~gi on V
            233 North Mi chig an A v enu e, Suite 1360
            Chic ago, IL 6060 1


             Subj ect orG Rep ort A--05 11--00 102 (UW reference          M SN I 271 26)

            D ear Ms , Ful ch er

            Thank y ou for the opp ortunity t o comment on th e abov e-refer ence d draft report enti tl ed "Univers ity of
            'Wi , consin -M adison Cl ai me d U n allow abl e Co ,t, to a Recov ery Act G rant, " After readi ng th e m at erial
            w,th gre at car e, we r equ est r eview an d reconsi deration of the requir em ent. an d recom men dations in thi,
            report

            The report inc1 u<k , Ihe following re c omm endati on

            W e r ecommen d th at NIH re quire the grant ee t o

                 • 	 Refun d $ 17 1,330 to th e F e<kral G ov e rnment for the cost of e quipm ent purch ase d wi th out prior
                     apPf9va! b y NIH and


                 • 	 O btai n pri9f approv al fMm NIH for all ch ang e. to th e sc op e of the pr9je ct in clu djn g purch ases
                     of egui pmem w jth a u mt CN t of $2 5 000 or more Iha! w ere n ot jn cluded In the gr antee ' ,
                     appf9v ed bu d get I

            The Uni v ersi ty of 'Wi sc on sin -Madi. on b el iev e s th ai we properl y h an dle d the purchase of equi pm e nt
            under th e " Exp an <kd Au t h oriti e s~ provi sion , of the National Jnsti /ules oj JieallA Grants Policy
            Simen'Umt (D ece mber 200 3), In a dditi on, we b eli ev e th at Dr. David Pagli arini , the Pri n cipa l
            Inve , tig ator, di d n ot re qUIre prior approval for chang es to the , cope of work as d escrib ed in Ih e ~ Ch ang e
            in S cope " provi sion s of th e Grant> Policy Staument

             Our resp on se is centere d on two as sum pti on s outlin ed in th e report

                 • 	 Per th e Cost Pri ncip les for Educational m slib>ti ons (2 CFR 220 , App . A J 18 (b) (2)), prior
                     approv al i, requir ed for p urch ase of equipm ent w ith a urnt cost of$ 5, 000 or m ore




             2 1 N. Perl 5trM:, 5 LiIE 6 401                                                      Ph:J,-., 60 8/262 - 33 22
             Mad ison, WI 5 3715 - 1218                                                              Fax 60 8/262 - 5111
                                                                                              tttp:/Iwww.rsp."';sc.edJ



1 O ffice ofInsped orGen6"aJ Note - Therep crt recanmendati ms W6"e rev ised based on grantee and Nlli ccrnments.
                                                                                                                  Page 2 of3




    •   A   ~hllngc   in scope occurred and as s uch, required prior upproval.

E(Juipment   Purc h a~e d   Without Prior Aprroval

The Uniform Administrative Requirements/or Grants and Agreements with Instill/lions a/Higher
Edllc(lIion. Hospitals and Other Non -Profit O' gamzations (2 e FR 2 15.25(c) indiclllt'S Ihu\ " Federal
lI wurding agenc ies arc authorized, at their oplio n, to wai ve cost-related and administrati ve prio r written
approvals requi red by 2 e FR pal1$ 220 and 230 (OMU Circulars A-21 :md A-Il2):' To that purpose,
the Grants Policy StCltelllenr section on "Expanded Authoriti es" (Part II: Tenus mId Conditions of N IH
Granl Awards, Subpart A : General, Administrati ve RC{IUircmcnts) slales thaI "NUl has wai ved cosl­
related and othe r prio r-approval requirements for man y acti viti es and expenditures, and provided
authorit y for these acti vities and expenditures to the grantee. These o perat ing authorities aTe te nned
'e",:panded authorities"" Exhibit :1 in this sectio n states that grantees may exercise as expanded authority
"cost-related prior anpro vals, including rescarch pati r.:n l care costs a nd equipmc nt (e mphas is added)."

Based o n this Fede ral g uidance, the Uni versity of Wisconsin-Madison docs not belie" e that the
prov ision for prior approval in the Cost Principles for Edllcafionallnstiflltions is applicable for this
award. -111e Uni versit y also believes that the costs are allowable, allocable, reasonable and necessary for
the a ward. Ln our inte rpreta tion of the "' Expanded Authorities" provis ions, we believe that we exercised
appro priate stewards hip over the use of the Fede ral funds and that the purc hases we re all owable.

Change in Scope

111e Uni vcfli ity of W i scons in- ~·ladison docs recognize tha t a change in Ihe scope of rut awa rd docs
require prio r appro, ral fro m the Fede ral agen cy as o utlined in 2 C FR 2 15.25,(c).( I ) and in the Grants
Policy Statement section 011 "Change in Scope" (Part II: Tenns and Conditio ns of NIH Granl Awards,
Subpart A: Gl.-'11eral, Adminis trati ve Requirements). -1l1e Uni versit y also recognizes that the usc of
expanded authorities is no t allowed if the re is a change in scope.

nle Grant.v Policy Statement' s section on "Change in Seo pe-' states ·'In general , the PI m ay make
cha nges in the methodology, appro.1eh, o r othe r aspects of the proj ect object iVes. However, the grantee
must o btain prior approval fro m the NIH aw ard ing olliee fo r n clmnge ill the din.:ctio n, t ype o f rcsenrch
o r training, o r othe r a reas that constitute a s ignificant change irom the aims, o bjecti ves, o r purposes of
the a pproved proj ect (hereafter " change in scope') The grantee must make the init ial detenninati on of
the s ignificance ora c hange and sho uld cons ult with the GMO as necessary."

111is provis ion recogni zcs thallhe PI has the abilit y to make changes to the project without the need fo r
prior approval. provided that there was nol a change in the d irecti on or s ignificant changes from the aims
and purposes of the proj ect, In addition, il is the respom;ibility of the grantee to detennine the
s igni.fi crulee of the chrulge (emphas is added ).

In reviewing the possible indicators of a c han ge in scope as o utl ined in the Grams Policy Slatemem. the
Uni vers ity acknowl edges that there was a pureha.<;e of equipment with the cost exceeding $25,000 and
that the purehase exceeded the budget category by greater than 25% of the total project costs. However.
these conditio ns are not mandatoril y requi red to obtain prior approval. ·l11ey arc "actio ns likely to be
considered a change in scope" bulnot absolute indicators that Ihe aims, objecti ves, a nd purposes of the
project ha ve c hanged,

'111e award provided fund s for a project e ntitled "Quantitati ve Mitochondrial Proteomics of Healthy and
Diabetic 1\'llce". Th is proj ect was di"ided into two specific aims each w ith two sub-aims. During the
proj ect period and w ithin the parameters of the data obtained durin g the course or the proj ect, Dr. David
                                                                                                                       Page 3 of3




Pagliarini. the PI, pelfQnned the scope of work as out lined in the original proposal's project summary
and Illirralivc. Dr. Pagliarini also submiltcd the required progress repon s doculllenting his work. In
response 10 inq uiries from the auditors, Or. Pagliarini continned the work perfoolled corresponded to
the o rigi nal scope of work.

'111C NIH Offi ce o f Extramural Research's "G lossary illlU Acronym Lis' " defin es a "Change of Scope" as
"An activit y whereby the o bject ives o r specifi c aims identifi ed in the appro \'ed g rant applicati on are
s igni.ficanliy changed by the £oHUllc.:: after award." Sinei! the work perfonned 011 this project was in
acco rdance wit h the object.,'es and s pecific a ims ide ntilied in the approved grant applica tio n, the
Uni versity of W iscons in-rv[adison does no t helieve a request for change in scope wa.'! required. i3ecUlt'!e
thcre was no t a c hange in scope, the Uni versity also believes that it was appropriat e to purchase the
ques tioned equipment items under the " Expanded Authority" pro visio ns. As a result, we do 110t be lieve
thaI there were a ny unall owable cquipmcnt purchases on Ihis award.

Please feel free to contact me w ith a ny q uestio ns at   randre~enl(1;J1;p . w i l;c . edu   or call me at 608-262-2896.
lllank yo u I'or your cooperation.


Sincerely.

Rob ert Andresen
Assistant Director


Cc: ilarton, Mike-OHI-IS OIG
                                                                                                                    Page 1 of3


APPENDIX B: NATIONAL INSTITUTES OF HEALTH COMMENTS 



     OEl'ARTMENT     or ItEALTH &. HU MAN SIiRVlCIS 	                           Public Health Service


                                                                                Nalionalln5tilutes o f   ~I ealth
                                                                                Belhllsda, Marvland 20892




  JUN 2 0 1011




 TO: 	          Sheri L. Fulcher
                Rcgionallnspcctor General for Audit Services

 FROM: 	        DireclOr, NIII

 SUBJECT: 	     General Comments on Dran Report, Unil'ersily ojWisCQ/lsin-Mudison
                Claimed UnullOll'uhle Coxl S 10 /J RecOI'cry Act Grunt (A-OS. 1 1·00] 02)


 Enclo~ccl  arc the National InsTituTes of Health 's agency commCn1S on Ihe draft rcpon,
 Unil'ersity of Wisc:olI.i"in- Madison Claimed Unallowuhle CostS /0 a Recol'ery ACI Grant
 (A-OS- I l-Oa 102).

 We appreciate Ihe opportunit y 10 review lind comment on the dran report. Should yOIl
 have questions or concerns regarding our comments, plcase contact Meredith Stein in Ihe
 Office of Management Assessment al 30\-402-8482.



                                      ~- (:)<)<­
                            ~.,....    Francis S. Collins, M.D., Ph.D.

 Allachmcnt
                                                                                                                                  Page 2 of3




                  GENERAL C OMM ENTS Ol- Tl-IE DEPARTMENT OF HEALTI I AND II UMAN
                  S": RVICf:S (lUIS) ON OFFICE OF INSPECTOR GENERAL DRAfiT REPORT,
                  ENTITLED UNIVERSITY OF WISCONSIN· MADISON ClA IMED UNA LLOWA BLE
                  COSTS TOA RECOVERYACTGRANT(A·05·1 1·00102)


                  The National Institutes of Health (N il I) appreciates the review conducted by Ihe Office of
                  Inspector General (DIG) and the opportunity 10 provide clarifications on this draft report. The
                  NIl! respectfully submits the following ge neral comments.

                  Ole Fim/ing I: Til e DIG recommends Ihal NUl require Ihe grtUllee to re/flnd SI 71,JJO to the
                  Federal GOI'cmment!or tile cost ofequipmel/f purchased withoul prior approval by NIH
                  (page 4).

                  The NIH does nol concur with the D IG's fi nding and correspond ing recommendation
                  regard ing the req uiremen t t hat the gra ntee refund SI 71.330. 2

                  The grantee purchased two pieces of equipment for work to be performed on the proposed
                  project RCI DK0864 10 (a Mass Spectrometer for $135,774 and a centrifuge fo r $35,556). The
                  National Institute of Diabetes and Digestive and Kidney Diseases (N IDDK) grants managemen!
                  staff confirmed with the NIH Program Official that both of these inslruments were used for
                  performing Ihe tasks and aims described in the proposed projcct RCIDK0864 10. These items of
                  equipment were used and needed to conduct experiments that were part of Ihe approved aims for
                  this grant. NID DK staff agree with the grantee that the purchase of equipment was not
                  considered a change in scope.

                   DIG Fillding 2: Tile DIG recommends Ihol N f l! require Ihe gral/lee to obtai" prior approval
                  frum N fl! fur /l lI l:hunKn tu th e :n:upe ufthe pruject, im:llll/inK PUrl'h u:le)' /If eY.I;I"lIImt with II
                  Ilnit cosl of$25,000 or more Illat were not ineluded in th e gral/lee's approved budget (page 4).

                  The NIH docs not concur wit h the OIG's finding and co rres ponding recommendatio n
                  regard ing the require men t that the grantee obtain NTH prior approval.

                  NIII requires ils grantees to comply wi th Ihe terms and conditions provided in the NI H Grants
                  )'olicy Statement (G PS). The applicable NIH GPS (dated 121200]) allows gra ntees a certain
                  degree of latilude to rebudget wi thin and between budget calego ries to meet unanticipated needs
                  and 10 make other types ofposl~award changes. Part Il , Subpart A, "Administrative
                  Requirements, add resses "Prior Approval Requirements." This section describes the activities
                  and/or expenditures that require NIII prior approval. NI II prio r approval is required for al l
                  instances involving a change in scope. The NII I G PS provides a list ofthose actions "likely to
                  be considered a change in scope" and, thereby. requiring NIH prior approval. Therefore, unless
                  the purchase o f a unit of equipmenl costing in excess of $25,000 or a significant rebud geting
                  action is considered a change in scope, NI II prior approval is not required. In addition, Ihe
                  sectio n under "Change in Scope" states that the" ... grantee mustlllake the initial determination
                  of the significance ofa change in scope and should consult with the Grants Management Officer
                  as necessary ...." Furthermore, as stated above, since the NJDDK staff concurs wilh the
                  gran tee's determination that the purchase of the equipment did not represent a change in scope




2   Office of Inspector General Note - The report recommendations were revised based on grantee and Nlli comments.
                                                                                                    Page 3 of3




GENERAL COMMENTS OF THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES (HHS) ON OFFICE OF INSPECTOR GENERAL DRAFT REPORT,
ENTITLED UNIVERSITY OF WISCONSIN- MADISON CLAIMED UNALLOWABLE
COSTS TO A RECOVERY ACT GRANT (A-OS-I 1-00102)


(i.e., change in the direction, type of research or tra'ining, or other areas that constitute a
significant change from the aims, objectives, or purposes of the approved project), NIH officials
have determined that prior approval was not required.




                                                                                         2
